          Office of Inspector General




March 30, 2006

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT:       Audit Report – Postal Inspection Service Human Resources Service
               Center (Report Number SA-AR-06-001)

This report presents the results of our self-initiated audit of the Postal Inspection Service
Human Resources Service Center (HRSC) (Project Number 03BN013SA001). Our
overall objective was to determine whether the HRSC was effectively and efficiently
supporting the mission of the Postal Inspection Service. Specifically, we determined
whether: (1) controls were adequate to prevent inappropriate payment of salaries
and prevent wrongful disclosure of records, (2) law enforcement availability pay (LEAP)
was properly certified and tracked, and (3) HRSC staff sufficiently managed vacancy
announcements and related files.

The HRSC was generally effective in supporting the Postal Inspection Service’s
mission. However, Postal Inspection Service management could make improvements
to increase operational efficiencies and further assist the U.S. Postal Service with its
goal of managing costs and improving productivity by transitioning the Postal Inspection
Service’s personnel-related transactions to the Postal Service Human Resources
Shared Service Center (SSC) or proposing another feasible alternative. In addition,
Postal Inspection Service management could strengthen controls for more effective and
efficient program management.

We recommended the chief postal inspector, in coordination with the Postal Service,
assess the benefits of transitioning the Postal Inspection Service’s personnel-related
transactions to the Postal Service SSC, or provide a feasible cost-savings alternative.
Based on information from management, such a transition could produce a cost savings
of $21.3 million over the next 10 years. Cost savings realized by transitioning the Postal
Inspection Service’s personnel-related transactions to the Postal Service SSC, or other
feasible alternative, provide an opportunity for funds put to better use and will be
reported as such in our Semiannual Report to Congress.

In addition, we recommended the chief postal inspector: ensure Human Resources
personnel periodically follow up with requesters to ensure they return official personnel
folders to the HRSC, require inspectors in charge to refine their procedures for ensuring
appropriate LEAP forms are completed timely as required, require HRSC personnel to
modify their process for reviewing and ensuring appropriate LEAP forms are completed
timely as required, and require HRSC management to conduct periodic reviews of
vacancy files to ensure the files are appropriately completed, updated, and disposed of.

Management partially agreed with recommendation 1 to close the HRSC and consider
transferring the transactional personnel-related work to the SSC but disagreed with the
initial cost savings of approximately $21.3 million. Management stated the U.S. Postal
Service Office of Inspector General’s cost savings analysis did not reflect the need to
continue performing non-transactional personnel-related work currently conducted at
the HRSC. After considering management’s comments, we reduced the cost savings to
approximately $14.4 million over the next 10 years.

In addition, management disagreed with recommendations 2 through 4. However,
management’s corrective actions taken or planned satisfy the intent of
recommendations 1 through 4. Management agreed with recommendation 5. We do
not plan to pursue recommendations 1 through 4 through the formal audit resolution
process. Management’s comments and our evaluation of these comments are included
in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sandra Bruce,
director, Oversight of Investigative Activities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Mary Anne Gibbons
    Lawrence Maxwell
    Nicole A. Johnson
    Steven R. Phelps
Postal Inspection Service                                                  SA-AR-06-001
 Human Resources Service Center


                                  TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                   1

    Background                                                                 1
    Objective, Scope, and Methodology                                          2
    Prior Audit Coverage                                                       5

 Part II

 Audit Results                                                                  6

    Opportunities Exist to Increase Operational Efficiencies and Realize        6
    Cost Savings

          Transition of Personnel-Related Transactions to the Shared            7
          Service Center Could Improve Productivity and Generate
          Significant Cost Savings
            Recommendation                                                    11
            Management’s Comments                                             11
            Evaluation of Management’s Comments                               12

          Salary Adjustments                                                  13

          Official Personnel Folders                                          14
            Recommendation                                                    16
            Management’s Comments                                             16
            Evaluation of Management’s Comments                               17

          Law Enforcement Availability Pay (LEAP) Certifications              17
            Recommendations                                                   18
            Management’s Comments                                             18
            Evaluation of Management’s Comments                               19

          Vacancy Files                                                       19
            Recommendation                                                    20
            Management’s Comments                                             20
            Evaluation of Management’s Comments                               20

 Appendix A. Benchmarked Results of Law Enforcement Agencies                  21
Postal Inspection Service                       SA-AR-06-001
 Human Resources Service Center



 Appendix B. Statistical Sampling Methodology      23

 Appendix C. Cost-Avoidance Methodology            25

 Appendix D. Management’s Comments                 27
Postal Inspection Service                                                                 SA-AR-06-001
 Human Resources Service Center


                                       EXECUTIVE SUMMARY
    Introduction                    This report represents the results of our self-initiated audit of
                                    the Postal Inspection Service’s Human Resources Service
                                    Center1 (HRSC). Our overall objective was to determine
                                    whether the HRSC was effectively and efficiently supporting
                                    the mission of the Postal Inspection Service. Specifically,
                                    we determined whether:

                                        •    Controls were adequate to prevent inappropriate
                                             payment of salaries and prevent wrongful disclosure
                                             of records.

                                        •    Law Enforcement Availability Pay (LEAP) was
                                             properly certified and tracked.

                                        •    HRSC staff sufficiently managed vacancy
                                             announcements and related files to assist the Postal
                                             Inspection Service in accomplishing its management
                                             initiative to improve its hiring process.

    Results in Brief                The HRSC was generally effective in supporting the Postal
                                    Inspection Service’s mission. However, Postal Inspection
                                    Service management could make improvements to increase
                                    operational efficiencies and further assist the Postal Service
                                    with its goals to manage cost and improve productivity.
                                    Further, Postal Service and Postal Inspection Service
                                    officials could be missing opportunities to reduce costs and
                                    redundant workloads that could produce significant cost
                                    savings.

                                    Specifically, our initial analyses showed they could realize a
                                    cost savings of approximately $14.4 million (funds put to
                                    better use) over the next 10 years by transitioning the Postal
                                    Inspection Service’s personnel-related transactions to the
                                    Postal Service’s Human Resources Shared Service Center
                                    (SSC) or providing a feasible alternative.




1
    Formerly the Newark Inspection Service Operations Support Group.



                                                         i
Postal Inspection Service                                                                            SA-AR-06-001
 Human Resources Service Center




                                   In addition, Postal Inspection Service management could
                                   strengthen controls for more effective and efficient program
                                   management. For example:

                                       •    Human resource specialists identified incorrectly
                                            processed salary adjustments resulting in $17,708 in
                                            salary overpayments and $1,850 in salary shortages.

                                       •    Two official personnel folders (OPFs) sent for
                                            reviews were not returned to the HRSC as required.

                                        •   Ten LEAP certification forms were missing and
                                            66 had discrepancies.2

                                        •   Sixty percent of vacancy files included in our sample
                                            were missing or did not contain the required
                                            documentation.3

                                   During the audit, Postal Inspection Service management
                                   took corrective actions regarding salary adjustments, which
                                   should help reduce the risk of salary adjustment errors.
                                   Postal Inspection Service management also took initial
                                   steps to address the issues with vacancy files; however,
                                   they need additional controls to improve the management of
                                   vacancy files.

    Summary of                     We recommended the chief postal inspector, in coordination
    Recommendations                with the Postal Service, assess the benefits of transitioning
                                   the Postal Inspection Service’s personnel-related
                                   transactions to the SSC or provide another feasible
                                   alternative, resulting in a cost savings of approximately
                                   $21.3 million over the next 10 years. Further, we
                                   recommended the chief postal inspector:

                                        •   Ensure Human Resources personnel periodically
                                            follow-up with requesters to ensure they return OPFs
                                            to the HRSC.



2
 The universe includes required LEAP Certifications for fiscal years 2003 through 2005.
3
 The universe included 45 vacancy files. Four of the 45 were missing and 27 did not contain the required
documentation.




                                                         ii
Postal Inspection Service                                                       SA-AR-06-001
 Human Resources Service Center


                                  •   Require inspectors in charge to refine their
                                      procedures for ensuring appropriate LEAP forms
                                      are completed timely as required.

                                  •   Require HRSC personnel to modify their process for
                                      reviewing and ensuring appropriate LEAP forms are
                                      completed timely as required.

                                  •   Require HRSC management to conduct periodic
                                      reviews of vacancy files to ensure the files are
                                      appropriately completed, updated, and disposed.

 Summary of                  Management partially agreed with recommendation 1 to
 Management’s                assess the benefits of transitioning personnel-related
 Comments                    transactions to the SSC, or providing a feasible alternative,
                             to improve productivity and realize a cost savings of
                             approximately $21.3 million over the next 10 years.
                             Management stated that on June 6, 2005, the chief postal
                             inspector initiated actions to consider closing the HRSC and
                             using the SSC prior to the U.S. Postal Service Office of
                             Inspector General (OIG) audit. Further, management
                             disagreed with the initial $21.3 million cost savings, stating
                             the analysis did not reflect the continued need to perform
                             non-transactional personnel-related work.

                             Management also stated that during the audit, they
                             acknowledged prior awareness of opportunities to transition
                             transactional personnel-related work to the SSC on several
                             occasions. Further, management asserted that they did, in
                             fact, proactively pursue the possibilities or benefits of
                             transitioning to the SSC. Management stated it was their
                             understanding that the SSC Decision Analysis Report
                             (DAR) focused on field-level personnel and did not address
                             headquarters and headquarters-related functions.

                             Additionally, management stated that the OIG’s
                             benchmarking results comparison of the HRSC staff to the
                             SSC staff was misleading and inaccurate. Specifically,
                             three of the HRSC employees performed administrative
                             duties and seven performed a great deal of non-
                             transactional work.




                                               iii
Postal Inspection Service                                                            SA-AR-06-001
 Human Resources Service Center




                                   Management disagreed with recommendation 2 to evaluate
                                   the process for disseminating OPFs to requesters, requiring
                                   Human Resources personnel to periodically follow-up with
                                   requesters to ensure they return OPFs to the HRSC or
                                   establish an alternative process for disseminating official
                                   OPFs. Management stated the HRSC LOG-OUT DBASE
                                   system provided an adequate process for releasing,
                                   tracking, and retrieving OPFs from requesters. However,
                                   management concurred that Human Resources
                                   management could exercise better enforcement.
                                   Management further stated that an audit of all personnel
                                   folders was underway.

                                   Management disagreed with recommendations 3 and 4 to
                                   require inspectors in charge to refine their procedures for
                                   ensuring employees timely complete appropriate LEAP
                                   forms as required. Management also disagreed with
                                   requiring HRSC personnel to modify their process for
                                   reviewing LEAP forms and ensuring employees complete
                                   them as required. Management stated the current
                                   procedures were adequate. Management further stated that
                                   a review of LEAP forms is an element of the local
                                   management control self-assessment domicile reviews and
                                   that they issued a management communication in
                                   October 20064 advising officials that LEAP forms were due
                                   at the start of the fiscal year. Management further stated
                                   the current process for matching completed LEAP forms
                                   with the employee list is an adequate process for oversight.
                                   However, management concurred that Human Resources
                                   management could exercise slightly better enforcement.

                                   Management agreed with recommendation 5 to conduct
                                   periodic reviews of vacancy files to ensure the files are
                                   appropriately completed, updated, and disposed.
                                   Management stated that prior to the issuance of this audit,
                                   they assigned necessary personnel to review files and
                                   complete the requisite follow-up. Management’s comments,
                                   in their entirety, are included in Appendix D of this report.




4
    The OIG believes that Postal Inspection Service management meant October 2005.



                                                        iv
Postal Inspection Service                                                         SA-AR-06-001
 Human Resources Service Center




 Overall Evaluation of       Postal Inspection Service management never apprised the
 Management’s                OIG of the review they assert was initiated by the chief
 Comments                    postal inspector on June 6, 2005, nor did they, on numerous
                             occasions, acknowledge prior awareness of opportunities to
                             transition transactional personnel-related work to the Postal
                             Service SSC.

                             Specifically, we initiated our audit in October 2004 and
                             briefed Postal Inspection Service management of the
                             preliminary results in August 2005. This briefing included
                             our recommendation to assess the benefits of transitioning
                             personnel-related transactions to the SSC to generate
                             significant cost savings. Also during the audit, we
                             requested that Postal Inspection Service officials provide
                             copies of previous and ongoing studies, reviews, and audits
                             of the HRSC on several occasions. We made these
                             requests in the audit announcement letter and during
                             various meetings with the assistant chief inspector,
                             administrative operations; manager, Human Resources and
                             Performance; and manager, HRSC.

                             However, officials only provided information regarding the
                             Postal Inspection Service’s review to revise Inspection
                             Service staffing and structure realignment, dated March 3,
                             2003. They did not apprise the OIG of their review initiated
                             by the chief postal inspector until our meeting on
                             December 19, 2005. Further, officials did not provide any
                             support to substantiate their review or any information
                             regarding their estimated cost savings to close the HRSC.

                             Also, we acknowledge Postal Inspection Service
                             management’s comprehension of the DAR process.
                             However, not being included in the SSC DAR should not
                             have precluded Postal Inspection Service management
                             from proactively pursuing or assessing the benefits to
                             transition HRSC personnel-related transactions to the SSC.
                             Finally, our benchmarking comparison results of the HRSC
                             and SSC staffs depicted the overall Human Resources staff-
                             to-employee ratios irrespective of functions or position titles.

                             Management’s formal comments on the findings and
                             recommendations represented a reversal of their position
                             taken during the exit conference. During that meeting,


                                              v
Postal Inspection Service                                                       SA-AR-06-001
 Human Resources Service Center


                             management did not indicate disagreement with any of the
                             findings and recommendations presented. In fact,
                             management requested that we make only minor edits and
                             stated they did not have any other problems with the report.

                             We believe the audit clearly showed that Postal Inspection
                             Service management could make improvements to increase
                             operational efficiencies and further assist the Postal Service
                             with its goals to manage cost and increase productivity by
                             transitioning the Postal Inspection Service’s personnel-
                             related transactions to the Postal Service SSC, or proposing
                             a feasible alternative. Postal Inspection Service
                             management also recognized that opportunities exist to
                             reduce costs and redundant workloads, and thus, decided
                             to close the HRSC. We do not plan to pursue this
                             recommendation through the formal audit resolution
                             process.

                             Management’s comments and corrective actions taken
                             regarding recommendation 2 are partly responsive.
                             Although management disagreed with our recommendation,
                             they took corrective action by initiating an audit of all
                             personnel folders. However, to improve records
                             management, management officials should ensure their
                             audit includes measures or processes to identify best
                             practices, industry standards, and enhanced procedures to
                             follow up with requesters regarding OPFs sent for review.
                             We do not plan to pursue this recommendation through the
                             formal audit resolution process.

                             Management’s comments regarding recommendations 3
                             and 4 are partially responsive. We recognized in the report
                             that HRSC management requests the required LEAP forms
                             annually. However, 48 percent of the LEAP forms reviewed
                             had discrepancies, 37 percent of which related to LEAP
                             forms received after the required first 15 calendar days of
                             the fiscal year. Thus, to ensure the appropriate forms are
                             completed, signed, and certified timely to substantiate
                             inspectors receiving availability pay, management should
                             also modify its review process to conduct sufficient follow-up
                             reviews of LEAP forms. We do not plan to pursue this
                             recommendation through the formal audit resolution
                             process.




                                              vi
Postal Inspection Service                                                    SA-AR-06-001
 Human Resources Service Center


                             Management’s comments and corrective actions regarding
                             recommendation 5 are responsive and satisfy the intent of
                             our recommendation to require HRSC personnel to conduct
                             periodic reviews of vacancy files.




                                            vii
Postal Inspection Service                                                                            SA-AR-06-001
 Human Resources Service Center


                                            INTRODUCTION
    Background                     Postal Inspection Service. The Postal Inspection Service’s
                                   mission is to preserve the integrity of the mail and the Postal
                                   Service by performing investigative, security, and preventive
                                   services; and by enforcing approximately 200 federal laws
                                   that protect the mail and Postal Service employees,
                                   customers, and assets. In support of the Postal Inspection
                                   Service’s mission, there are 245 employees at the Postal
                                   Inspection Service’s Human Resources Service Center
                                   (HRSC). These employees provide 3,5796 non-executive
                                   Postal Inspection Service employees with a variety of
                                   services, including guidance on benefits, personnel actions,
                                   discipline, safety and injury compensation, and the health
                                   examination programs.

                                   Further, the HRSC is the operational center that processes
                                   all new hires, retirements, reassignments, and employee
                                   actions for Postal Inspection Service non-executive
                                   employees. HRSC comprises three teams, each
                                   responsible for a geographical area consistent with the
                                   current Inspection Service Field Operations structure (East,
                                   South, and West). The HRSC’s operating costs7 for fiscal
                                   years (FY) 2004 and 2005 were $2,927,6148 and
                                   $2,344,399,9 respectively. The Postal Service’s Human
                                   Resources Shared Service Center (SSC) processes
                                   personnel-related transactions similar to the Postal
                                   Inspection Service’s HRSC.

                                   Postal Service. In support of the Postal Service’s goal to
                                   manage costs, management implemented its PostalPeople
                                   initiative in January 2005. The PostalPeople initiative
                                   included replacing outdated Human Resources legacy
                                   systems with a single, fully integrated system featuring
                                   redesigned processes that are streamlined, standardized,
                                   and automated; and transitioning personnel-related
                                   transactions to self-service and a single SSC. This initiative




5
  The actual number of HRSC employees as of pay period 14, FY 2005. The authorized complement was 30.
6
  As of pay period 14, FY 2005.
7
  Operating cost include personnel salaries, non-personnel cost, and annual facility lease.
8
  Includes personnel salaries as of pay period 20, FY 2004.
9
  Includes non-personnel costs of $764,498 for year-to-date as of May 31, 2005; and personnel salaries as of pay
period 14, FY 2005.



                                                         1
Postal Inspection Service                                                        SA-AR-06-001
 Human Resources Service Center




                             will assist the Postal Service with accomplishing its goals to
                             reduce costs an additional $5 billion by 2010 and improve
                             productivity to provide services at the lowest possible price.

 Objective, Scope, and       Our overall objective was to determine whether the HRSC
 Methodology                 effectively and efficiently supported the mission of the
                             Postal Inspection Service. Specifically, we determined
                             whether:

                                  •   Controls were adequate to prevent inappropriate
                                      payment of salaries and prevent wrongful disclosure
                                      of records.

                                  •   Law Enforcement Availability Pay (LEAP) was
                                      properly certified and tracked.

                                  •   HRSC staff sufficiently managed vacancy
                                      announcements and related files to assist the Postal
                                      Inspection Service in accomplishing its management
                                      initiative to improve its hiring process.

                             To accomplish our objective, we interviewed Postal
                             Inspection Service and Postal Service officials, including
                             managers for human resource performance, HRSC, and
                             Human Resources; Human Resources team leaders;
                             Human Resources specialists for vacancy announcements,
                             recruitment, and injury compensation; the coordinator and
                             technician for allied services; and the manager, Postal
                             Service Human Resources SSC.

                             Additionally, we reviewed policies and procedures regarding
                             (1) personnel records and files, (2) promotion pay and step
                             increases, (3) law enforcement availability pay, (4) vacancy
                             announcements and related files, (5) Freedom of
                             Information Act requests, and (6) other Human Resources
                             services managed by personnel at the HRSC. Specifically
                             we reviewed:

                                  •   Inspection Service Manual (ISM), dated April 1,
                                      2004.

                                  •   Postal Service Employee and Labor Relations
                                      Manual, dated July 7, 2005.



                                               2
Postal Inspection Service                                                                               SA-AR-06-001
 Human Resources Service Center




                                        •     Postal Service Administrative Support
                                              Handbook 353, dated September 2005.

                                        •     Postal Inspection Service Management
                                              Communication, FY 2000 Inspection Service Law
                                              Enforcement Performance Evaluation Process,
                                              dated November 8, 2000.

                                        •     Postal Inspection Service Administrative Operations
                                              Recruitment and Applicant Processing.10

                                    Cost Savings. We prepared a 10-year discounted cash flow
                                    analysis of HRSC employee salaries and the annual lease
                                    cost, resulting in $14.4 million in savings over the next
                                    10 years.

                                    Salary Payments. We randomly sampled salaries for
                                    inspectors and forensic personnel, on-board for at least
                                    1 year, as of pay period 20, FY 2004. We reviewed the
                                    salary history contained in the Postal Service’s Payroll
                                    System from January 1, 1999, through April 25, 2005. We
                                    also reviewed Postal Inspection Service Law Enforcement
                                    (ISLE) and Forensic pay salary charts, policies, and
                                    procedures for career progression; and applicable Postal
                                    Service (PS) Forms 50, Notification of Personnel Action.

                                    Based on the employee’s salary history and the applicable
                                    policies and procedures for career progression, we:

                                         •     Determined the effective dates for salary
                                               adjustments and the appropriate salary increase
                                               amounts.

                                         •     Calculated the appropriate salary amounts,
                                               including LEAP and general increases.

                                         •     Compared our results to the salary amounts
                                               contained in the Postal Service Payroll System and
                                               the applicable PS Forms 50.



10
  This is an internal Postal Inspection Service document that provides information for recruitment, application
processing, and career progression for inspectors. The document does not have a publication date.



                                                           3
Postal Inspection Service                                                                 SA-AR-06-001
 Human Resources Service Center


                               However, we did not assess the reliability of the computer-
                               generated data from the Postal Service’s Payroll System.
                               Based on our comparative analyses of data obtained from
                               the Postal Service’s Payroll System and discussions with
                               officials regarding the HRSC complement, we consider this
                               data sufficiently reliable to support the opinions and
                               conclusions in this report.

                               Disclosure of Records. We verified that Human Resources
                               kept official personnel folders (OPFs) in a secure area and
                               limited access to authorized personnel. In addition, we
                               reviewed the process used to handle requests to review
                               OPFs. We analyzed the HRSC’s LOG-OUT DBASE
                               system11 for FYs 2003 and 2004 and randomly sampled
                               OPFs for active Postal Inspection Service employees as of
                               pay period 20, FY 2004. We assessed whether (1) OPFs
                               existed for each employee, (2) requests to review OPFs
                               were submitted and managed as required, and (3) OPFs
                               sent out for review were properly tracked and returned to
                               the HRSC as required.

                               LEAP Certifications. We randomly sampled a listing of
                               non-executive postal inspectors on-board as of pay
                               period 20, FY 2004. We identified the number of LEAP
                               certifications required for each inspector for FYs 2003
                               through 2005 and verified whether the forms were
                               completed as required.

                               Vacancy Announcements. We reviewed the process for
                               vacancy announcements and judgmentally sampled
                               vacancy files supporting vacancy announcements for
                               FY 2004. We assessed whether a vacancy file existed for
                               each vacancy announcement and if it contained the
                               required documentation. Further, we assessed the length of
                               time the position was vacant.

                               Benchmarking. We benchmarked with the Drug
                               Enforcement Administration (DEA) and United States
                               Marshals Service (U.S. Marshals) to identify the mission,
                               functions, and operations of their Human Resources
                               Departments and best practices. We also reviewed the
                               Postal Service and U.S. Postal Service Office of Inspector

11
  HRSC LOG-OUT DBASE system is an excel spreadsheet HRSC personnel implemented and maintains to track
requests for OPFs.



                                                   4
Postal Inspection Service                                                        SA-AR-06-001
 Human Resources Service Center


                             General (OIG) policies and procedures for OPFs and
                             Human Resources staff-to-employee ratios.

                             Due to the magnitude of the Safety and Injury
                             Compensation Program and our limited resources, we did
                             not assess this program. However, we plan to conduct a
                             future audit to evaluate whether the Postal Inspection
                             Service is appropriately managing its Safety and Injury
                             Compensation Program.

                             We conducted the audit from October 2004 through
                             March 2006, in accordance with generally accepted
                             government auditing standards, and included such tests of
                             internal controls as we considered necessary under the
                             circumstances. We discussed our observations and
                             conclusions with management officials and included their
                             comments where appropriate.

 Prior Audit Coverage        We did not identify any prior audits or reviews related to the
                             objective of this audit.




                                              5
Postal Inspection Service                                                        SA-AR-06-001
 Human Resources Service Center


                                      AUDIT RESULTS
 Opportunities Exist        The HRSC was generally effective in supporting the Postal
 to Increase                Inspection Service’s mission. However, the Postal
 Operational                Inspection Service could make improvements to increase
 Efficiencies and           operational efficiencies and further assist the Postal Service
 Realize Cost Savings       with its goals of managing costs and improving productivity
                            at lower prices. Specifically, our initial analysis showed that
                            Postal Service and Postal Inspection Service officials could
                            further improve productivity and realize a cost savings of
                            approximately $14.4 million over the next 10 years by
                            transitioning the Postal Inspection Service’s personnel-
                            related transactions to the SSC or providing another feasible
                            alternative.

                            Additionally, Postal Inspection Service management could
                            strengthen controls to improve program management. For
                            example:

                                  •   Human Resources specialists identified incorrectly
                                      processed salary adjustments resulting in $17,708 in
                                      salary overpayments and $1,850 salary shortages.

                                  •   Requestors did not return to the HRSC two OPFs
                                      sent for review, as required.

                                  •   Ten LEAP certification forms were missing and
                                      66 had discrepancies.

                                  •   Sixty percent of vacancy files included in our sample
                                      were missing or did not contain the required
                                      documentation.

                            Increased controls should improve efficiencies, reduce the
                            risk for processing errors, and provide more effective
                            monitoring and accountability for OPFs, LEAP forms, and
                            vacancy files. Further, increased controls could improve
                            data integrity, maintain public and employee trust,
                            substantiate inspectors receiving availability pay, and
                            minimize the risk of litigation regarding hiring practices.




                                                6
Postal Inspection Service                                                                           SA-AR-06-001
 Human Resources Service Center




                                    During the audit, Postal Inspection Service management
                                    took corrective actions regarding salary adjustments, which
                                    should assist them with reducing the risk for errors with
                                    salary adjustments. Management also took initial steps to
                                    address the issues with vacancy files. However, additional
                                    controls are needed to improve the management of vacancy
                                    files.

 Transition of                      The Postal Inspection Service could further improve
 Personnel-Related                  productivity and realize a cost savings of approximately
 Transactions to the                $14.4 million over the next 10 years by transitioning its
 Shared Service Center              personnel-related transactions to the Postal Service’s
 Could Improve                      Human Resources SCC or another feasible alternative.
 Productivity and                   However, Postal Service officials did not include the Postal
 Generate Significant               Inspection Service in its Decision Analysis Report (DAR) to
 Cost Savings                       transition personnel-related transactions to the SSC.
                                    Further, Postal Inspection Service officials did not proactively
                                    pursue the possibility or evaluate the benefits of transitioning
                                    to the SSC or providing another feasible alternative. As a
                                    result, the officials could be missing opportunities to increase
                                    program efficiencies and generate cost savings.

                                    The Postal Service Transitions to SSC. In April 2004, the
                                    Postal Service obtained approval for a DAR to develop and
                                    deploy the Postal Service’s new enterprise system12 and
                                    SSC, at a cost of $103.4 million. Collectively, the enterprise
                                    system and SSC replaced over 70 non-integrated and
                                    obsolete systems and centralized repetitive and routine
                                    human resources transactions to a single SSC. Based on
                                    the DAR, the estimated benefits include a net reduction of
                                    803 full-time authorized positions, and an 8.49 percent return
                                    on investment.

                                    Accordingly, in January 2005, the Postal Service began
                                    transitioning to the SSC its personnel-related transactions
                                    regarding (1) Executive Administrative Schedule (EAS)
                                    vacancies; (2) benefits; (3) retirements and separations;
                                    (4) complement management; (5) recruitment, hiring, and
                                    testing; and (6) job bidding for three performance clusters.13
                                    Eventually, personnel-related transactions for all of the


12
     The enterprise system is a single integrated system that supports human resources processes.
13
     Triboro, Northland, and Santa Ana Districts.



                                                           7
Postal Inspection Service                                                                                  SA-AR-06-001
 Human Resources Service Center


                                    Postal Service’s performance clusters14 will be processed at
                                    the SSC.15

                                    In addition, the Postal Service reported in the DAR that other
                                    companies that implemented integrated systems and shared
                                    services typically experienced the following:

                                                  •    Increased productivity

                                                  •    More efficient day-to-day operations

                                                  •    Reduced administrative cost

                                                  •    Real-time information provided by a single data
                                                       source

                                                  •    Increased employee satisfaction

                                    Further, according to the postmaster general:

                                          . . . shared services have proven to be effective
                                          for both government and private sector
                                          applications, particularly in the information
                                          technology and administrative services areas.
                                          Much of the savings in shared service programs
                                          come from centralization of common functions
                                          and reduction of overhead, enabled by
                                          technology.16

                                    Comparative Analyses of Personnel-Related Transactions
                                    and Staff Ratios. Our comparative analyses of personnel-
                                    related transactions showed that HRSC and SSC personnel
                                    process the same routine and repetitive personnel-related
                                    transactions. The chart below lists these transactions.




14
   Performance clusters include all Postal Service facilities, such as post offices, processing and distribution centers,
and air mail facilities.
15
   Nationwide implementation was scheduled to start in January 2006 with full implementation by March 2007.
16
   Postal Service Five-Year Strategic Plan, FYs 2004 through 2008.



                                                            8
Postal Inspection Service                                                                               SA-AR-06-001
 Human Resources Service Center




                                                                       Postal Service               Postal
                                       Personnel-Related                  Human                   Inspection
                                          Transaction                  Resources SSC             Service HRSC

                                   Recruitment (Hiring and
                                                                                 √                        √
                                   Testing)
                                   Benefits                                      √                        √
                                   Vacancies                                     √                        √
                                   Retirements/Separations                       √                        √
                                   Job Bidding                                   √                        √
                                   EAS Salary Action                             √                        √

                                 However, the staff-to-employee ratios varied significantly, as
                                 shown in the chart below.

                                                                                                    SSC
                                                                                               After National
                                         Personnel               HRSC            SSC         Implementation17

                                   Number of Staff                     24              30                      457
                                   Number of
                                   Employees                     3,57918          43,638                821,68619
                                   Serviced
                                   Staff-to-Employee
                                                                1 to 149      1 to 1,455             1 to 1,79820
                                   Ratio

                                 Agencies’ Benchmarking Results. Our benchmarking results
                                 with the DEA, U.S. Marshals, and the OIG showed that SSC
                                 Human Resources staff-to-employee ratios far exceed those
                                 of agencies that have not transitioned their personnel-related
                                 transactions to a shared service environment. The chart
                                 below depicts Human Resources staff-to-employee ratios,
                                 and Appendix A shows a more detailed analysis.




17
   National implementation denotes full transition of all personnel-related transactions for Postal Service performance
clusters to the SSC.
18
   As of pay period 14, FY 2005.
19
   1,798 x 457 = 821,686 employees serviced after national implementation.
20
   Proposed ratio figure used in the DAR for Human Capital Enterprise, Human Resources Shared Service, dated
January 20, 2004.



                                                           9
Postal Inspection Service                                                                  SA-AR-06-001
 Human Resources Service Center




                                           Personnel           DEA        U.S. Marshals      OIG21

                                   Number of Staff                   98             104           13
                                   Number of Employees
                                                                10,894            4,437          846
                                   Serviced
                                   Staff-to-Employee
                                                               1 to 111          1 to 43     1 to 65
                                   Ratio

                                  Overall, shared services have proven to be effective in
                                  managing and reducing cost. Therefore, to assist the Postal
                                  Service in accomplishing its goals to reduce cost an additional
                                  $5 billion by 2010 and improve productivity by providing
                                  services at the lowest price, management should transition the
                                  Postal Inspection Service’s personnel-related transactions to
                                  the SSC for a cost savings of approximately $14.4 million over
                                  the next 10 years, or find a feasible alternative.

                                  We briefed Postal Inspection Service officials on our results
                                  and they agreed that opportunities exist to reduce cost and
                                  redundant workloads by transitioning the Postal Inspection
                                  Service’s personnel-related transactions to the SSC or
                                  providing another feasible alternative. In fact, during the audit,
                                  the chief postal inspector initiated a review of all Postal
                                  Inspection Service programs and functions, which included
                                  the HRSC. This review also found that the HRSC had
                                  redundant workloads. To support the Postal Service’s goal to
                                  manage cost and increase productivity, Postal Inspection
                                  Service management decided to close the HRSC. According
                                  to Inspection Service management, they are currently working
                                  with Postal Service officials on preplanning strategies to close
                                  the HRSC.

                                  Additionally, the OIG is currently conducting reviews to assess
                                  the possibility and benefits of transitioning its personnel-
                                  related transactions to the SSC or other processing centers.

 Recommendation                   We recommend the chief postal inspector, in conjunction with
                                  the Postal Service:

                                        1. Assess the benefits of transitioning the Postal
                                           Inspection Service’s personnel-related transactions to

21
     Figures as of September 3, 2005.



                                                       10
Postal Inspection Service                                                         SA-AR-06-001
 Human Resources Service Center


                                  the Postal Service Shared Service Center, or another
                                  feasible alternative, to improve productivity and realize
                                  a cost savings of approximately $21.3 million over the
                                  next 10 years.

 Management’s              Management partially agreed with our recommendation,
 Comments                  stating they had taken actions to consider closing the HRSC
                           and using the SSC prior to the OIG audit. However,
                           management disagreed with the initial approximated
                           $21.3 million cost savings, stating the analysis did not reflect
                           the continued need to perform non-transactional personnel-
                           related work.

                           Management also stated that during the audit, they
                           acknowledged prior awareness of opportunities to transition
                           transactional personnel-related work to the SSC on several
                           occasions, and that the findings and recommendations offered
                           in this report provided no new insight. Additionally,
                           management stated that the chief postal inspector initiated a
                           comprehensive review on June 6, 2005, to evaluate
                           administrative and investigative programs and that the review
                           was in no way associated with or the result of the OIG’s audit.

                           Further, management stated the OIG’s statement that Postal
                           Inspection Service officials did not proactively pursue the
                           possibilities or benefits of transitioning to the SSC was
                           inaccurate. Management also stated it was their
                           understanding that the SSC DAR focused on field-level
                           personnel and did not address headquarters and
                           headquarters related functions. Furthermore, management
                           stated the benchmarking results comparison of the HRSC
                           staff to the SSC staff was misleading and inaccurate.
                           Management stated that three of the HRSC employees
                           performed administrative duties and seven performed a great
                           deal of non-transactional work.

 Evaluation of             Postal Inspection Service management never apprised the
 Management’s              OIG of the review they assert was initiated by the chief postal
 Comments                  inspector on June 6, 2005, nor did they, on numerous
                           occasions, acknowledge prior awareness of opportunities to
                           transition transactional personnel-related work to the Postal
                           Service SSC.




                                              11
Postal Inspection Service                                                                                   SA-AR-06-001
 Human Resources Service Center


                                  We initiated our fieldwork in October 2004 and briefed our
                                  preliminary results to Postal Inspection Service management
                                  on August 5, 2005, including our recommendation to assess
                                  the benefits of transitioning personnel-related transactions to
                                  the SSC to generate significant cost savings. On multiple
                                  occasions during the audit, we requested information
                                  regarding previous and ongoing audits, studies, and reviews
                                  of the HRSC. We made these requests in the audit
                                  announcement letter and during subsequent meetings with the
                                  assistant chief inspector, Administrative Operations; manager,
                                  Human Resources and Performance; and manager, HRSC.

                                  The officials only provided information regarding the Postal
                                  Inspection Service’s review to revise Inspection Service
                                  staffing and realign its structure, dated March 3, 2003. They
                                  did not apprise the OIG of the review they said was initiated
                                  by the chief postal inspector until our exit conference on
                                  December 19, 2005. Additionally, during the exit conference,
                                  we requested that officials provide details of this review,
                                  including a copy of the results. The officials only provided an
                                  email and not any supporting documentation showing the
                                  results of their review or any information regarding their
                                  estimated cost savings to close the HRSC.

                                  Further, during the audit, we asked Postal Inspection Service
                                  and Postal Service management officials whether the Postal
                                  Inspection Service or Postal Service had discussed or
                                  conducted studies or reviews to evaluate the possibilities of
                                  transitioning the HRSC personnel-related transactions to the
                                  SSC. According to the officials, they had not conducted any
                                  studies or reviews and had only informally discussed
                                  transitioning selected aspects22 of the Postal Inspection
                                  Service’s Human Resources functions to the SSC. However,
                                  they decided not to transition the selected aspects. We
                                  requested information regarding their decision and, again, the
                                  officials did not provide any additional information or details.

                                  We acknowledge the Postal Inspection Service’s
                                  understanding of the DAR process. However, the fact that the
                                  Postal Inspection Service was not included in the DAR did not
                                  preclude Postal Inspection Service management from
                                  proactively pursuing or assessing the benefits to transition
22
   According, to an official, they discussed the possibilities of converting the Postal Inspection Service’s payroll
transactions from the Complement Management System to the Human Capital Enterprise System, which is
developed by Systems Application Products.



                                                            12
Postal Inspection Service                                                             SA-AR-06-001
 Human Resources Service Center


                               HRSC personnel-related transactions to the SSC. In addition,
                               our benchmarking comparison results of the HRSC staff and
                               the SSC staff depicted the overall Human Resources staff-to-
                               employee ratios irrespective of functions or position titles.

                               Our audit demonstrated that Postal Inspection Service
                               management could make improvements to increase
                               operational efficiencies and further assist the Postal Service
                               with its goals to manage cost and increase productivity by
                               transitioning the Postal Inspection Service’s personnel-related
                               transactions to the Postal Service SSC. Postal Inspection
                               Service management also recognized the opportunities to
                               reduce cost and redundant workloads, and thus, decided to
                               close the HRSC. We do not plan to pursue this
                               recommendation through the formal audit resolution process.

 Salary Adjustments            Controls were adequate to prevent payment of inappropriate
                               salaries. The ISM provides specific guidance for career
                               progression, promotional pay, step increases, and progression
                               to journeyman level.23 Human Resources specialists interpret
                               the guidance to determine the appropriate salary adjustments
                               for inspectors and forensic personnel. The specialists
                               manually calculate the salary adjustments (including LEAP
                               and locality pay) on the salary adjustment worksheets.

                               During the audit, HRSC staff identified erroneous salary
                               adjustments, resulting in $16,78724 in salary overpayments
                               and $1,85025 in salary shortages. Further, in our analysis of
                               salaries for 100 inspectors and/or forensic personnel, we
                               identified only one additional minor error, resulting in a salary
                               overpayment of $921. Management took immediate actions
                               to correct the error.

                               The errors occurred because Human Resources specialists
                               did not appropriately apply Postal Inspection Service policies
                               regarding career progressions. In addition, although Human
                               Resources team leaders reviewed and certified the salary
                               adjustment worksheets, they did not always verify the
                               calculations or the appropriate progression levels to ensure
                               the salaries were accurate.



23
   ISM, Section 121.5, dated April 1, 2004.
24
   The amount represents the combined overpayments for 14 inspectors.
25
   The amount represents the combined shortages for eight inspectors.



                                                      13
Postal Inspection Service                                                                 SA-AR-06-001
 Human Resources Service Center


                                   Management strengthened controls by directing team leaders
                                   to provide training to ensure Human Resources specialists
                                   could interpret and apply policies regarding career
                                   progressions. In addition, team leaders were required to
                                   verify calculations and the appropriate progression levels
                                   prior to Human Resources specialists processing salary
                                   adjustments. Thus, management was proactive in improving
                                   efficiencies.

                                   The corrective actions taken should reduce the risk for salary
                                   adjustment errors. Therefore, we are not making any
                                   recommendations regarding salary adjustments.

 Official Personnel                Generally, HRSC personnel safeguarded OPFs. However,
 Folders                           opportunities exist to improve follow-up procedures and
                                   overall accountability as the custodian for OPFs sent out for
                                   review. The OPF is the official repository of personnel actions
                                   taken during an employee’s federal service, including all
                                   required supporting documentation. The folder contains
                                   temporary and permanent records and confidential information
                                   including, but not limited to, social security number, birth date,
                                   address, employee’s official status, salary, and benefits.

                                   Further, the personnel actions and documents provide
                                   supporting documentation for litigation and establish
                                   employee rights and benefits under the pertinent laws and
                                   regulations governing federal employment. The manager,
                                   HRSC, is the designated custodian of OPFs for non-executive
                                   Postal Inspection Service employees.26 Human Resources
                                   personnel track requests for OPFs via their LOG-OUT DBASE
                                   system and instruct requesters to return OPFs to the HRSC
                                   within 30 days after receipt.




26
     ISM, Section 128.1, dated April 1, 2004.



                                                      14
Postal Inspection Service                                                                            SA-AR-06-001
 Human Resources Service Center




                                  Our analysis of the LOG-OUT DBASE system for FYs 2003
                                  and 2004 showed that 328 and 346 OPFs, respectively, were
                                  sent to requesters for review. Further, Human Resources
                                  personnel did not annotate the return dates for 28 of the 328,
                                  and 50 of the 346 OPFs. The length of time these OPFs had
                                  been out ranged from 3 to 23 months. We physically
                                  inventoried OPFs and determined that requesters did not
                                  return two to the HRSC and Human Resources personnel
                                  could not account for them. During the audit, Human
                                  Resources personnel contacted the requesters. One
                                  requester stated they returned the OPF to the HRSC but the
                                  other was unable to locate the OPF. Subsequently, Human
                                  Resources staff reconstructed the missing OPFs. In addition,
                                  our review of OPFs for non-executive Inspection Service
                                  employees determined they did not track four OPFs in the
                                  LOG-OUT DBASE system.

                                  We recognize the Human Resources staff is not required to
                                  use the LOG-OUT DBASE system or any other tracking
                                  mechanism to monitor OPFs sent to Postal Service officials
                                  performing their official duties.27 However, according to
                                  Human Resources personnel, this system is their official
                                  method for tracking requests to review OPFs and following up
                                  on those not returned. In addition, as stipulated by the
                                  Privacy Act, employees and employers are entitled to review
                                  original OPFs.

                                  However, based on our benchmarking results, DEA and U.S.
                                  Marshals do not send original OPFs to requesters for review.
                                  The officials stated they do not send the originals because
                                  they want to protect the integrity of the OPF and it would be
                                  difficult to reconstruct original OPFs if they are lost, stolen, or
                                  missing. Consistent with the Postal Inspection Service, the
                                  OIG’s Human Resources staff sends original OPFs to
                                  requesters. However, according to the OIG Human
                                  Resources staff, they document each request to review OPFs
                                  and follow-up with requesters to ensure they return the OPFs.




27
     Postal Service Handbook Administrative Support 353, Section 3-5.5a (2), dated September 2005.



                                                         15
Postal Inspection Service                                                             SA-AR-06-001
 Human Resources Service Center




                                  Further, in discussing expected improvements during the next
                                  5 years, the postmaster general stated:

                                        . . . records management will improve by
                                        standardizing data retention practices, developing
                                        new policies based on industry standards, and more
                                        effective Freedom of Information Act processing.28

                                  Thus, Postal Inspection Service officials should reevaluate
                                  their current practice of disseminating original OPFs and
                                  implement more effective procedures to follow up with
                                  requesters regarding OPFs sent for review. Controls that are
                                  more effective could minimize the Postal Inspection Service’s
                                  risk of losing official confidential employee data and
                                  jeopardizing employee and public trust. In addition, wrongful
                                  disclosures of information contained in OPFs may violate the
                                  Privacy Act and/or Freedom of Information Act and subject
                                  Postal Inspection Service employees to penalties.

 Recommendation                   We recommend the chief postal inspector:

                                      2. Evaluate the process for disseminating official
                                         personnel folders to requesters to (1) require Human
                                         Resources personnel to periodically follow-up with
                                         requesters to ensure official personnel folders are
                                         returned to the Human Resources Shared Service
                                         Center as required or (2) establish an alternative
                                         process for disseminating original official personnel
                                         folders.

 Management’s                     Management disagreed with our recommendation, stating the
 Comments                         HRSC LOG-OUT database system provides an adequate
                                  process for releasing, tracking, and retrieving official
                                  personnel folders from requesters. Management further
                                  stated that: (1) Human Resources specialists have used the
                                  system on a continuous basis, (2) they concur that Human
                                  Resources management could exercise slightly better
                                  enforcement, and (3) an audit of all personnel folders is
                                  underway.




28
     Postal Service Strategic Transformation Plan for FYs 2006 through 2010.



                                                          16
Postal Inspection Service                                                                 SA-AR-06-001
 Human Resources Service Center




 Evaluation of                    Management’s comments and corrective actions taken are
 Management’s                     partially responsive to our recommendation. Although
 Comments                         management disagreed with our recommendation, they took
                                  corrective action by initiating an audit of all personnel folders.
                                  However, to improve records management, management
                                  officials should ensure their audit includes measures or
                                  processes to identify best practices, industry standards, and
                                  enhanced procedures to follow up with requesters regarding
                                  OPFs sent for review. We do not plan to pursue this
                                  recommendation through the formal audit resolution process.

 Law Enforcement                  Generally, Postal Inspection Service officials properly tracked
 Availability Pay                 and certified LEAP forms. However, officials could further
 (LEAP) Certifications            improve HRSC’s process to review and ensure the LEAP
                                  forms are completed as required. Specifically, our review of
                                  157 LEAP forms for 58 non-executive inspectors for FYs 2003
                                  through 2005 determined:

                                      •    Ten LEAP forms were missing.

                                      •    Eight Annual LEAP certifications (instead of initial
                                           certifications) were completed and certified prior to the
                                           inspectors’ receiving availability pay for 1 year.

                                      •    Fifty-eight LEAP certifications were received after the
                                           required first 15 calendar days of the fiscal year.

                                  LEAP is intended to compensate law enforcement agents for
                                  working in excess of the standard 40-hour work week. It is a
                                  condition of employment that each inspector meets the annual
                                  average minimum requirement of 2 hours of unscheduled
                                  work per regular workday. All inspectors in the ISLE pay
                                  system are required to complete an initial LEAP certification
                                  form until they receive availability pay for 1 year. After the
                                  first year, the inspector must complete the annual LEAP
                                  certification form within the first 15 calendar days of each
                                  fiscal year.29 HRSC personnel maintain, track, and retain the
                                  LEAP certification forms for 3 years.

                                  Annually, the HRSC manager sends a reminder to field
                                  personnel requesting the required LEAP certification forms.
29
     ISM Sections 123.54 through 123.545, dated April 1, 2004.



                                                          17
Postal Inspection Service                                                                     SA-AR-06-001
 Human Resources Service Center


                                 The inspectors-in-charge (INC) are initially responsible for
                                 ensuring that each inspector completes the appropriate form
                                 and that inspectors’ supervisors certify the forms. Once the
                                 forms are completed and certified, the INC forwards the forms
                                 to the HRSC. Human Resources team leaders review the
                                 forms for completeness and retain the forms at the HRSC for
                                 3 years. Although INCs and Human Resources team
                                 leaders reviewed the forms, they did not always ensure the
                                 appropriate forms were completed timely as required.

                                 Postal Inspection Service officials should modify the review
                                 process to conduct sufficient follow-up reviews of LEAP forms.
                                 This change will assist the Postal Inspection Service with
                                 ensuring appropriate forms are completed, signed, and
                                 certified to substantiate inspectors receiving availability pay.

 Recommendations                 We recommend the chief postal inspector:

                                     3. Require inspectors in charge to refine their procedures
                                        to include sufficient follow-up for ensuring appropriate
                                        Law Enforcement Availability Pay forms are completed
                                        timely as required.

                                     4. Require Human Resources Service Center personnel
                                        to modify their process for reviewing and ensuring
                                        appropriate Law Enforcement Availability Pay forms are
                                        completed timely as required.

 Management’s                    Management disagreed with our recommendations, stating
 Comments                        the current procedures management officials follow are
                                 adequate and that a review of LEAP forms is an element of
                                 local management control self-assessment domicile reviews.
                                 Management also stated they issued a management
                                 communication in October 2006,30 advising management
                                 officials that LEAP forms were due at the start of the fiscal
                                 year.

                                 Further, management stated that the current process for
                                 matching completed LEAP forms with the employee list is an
                                 adequate process for oversight. However, management
                                 concurred that Human Resources management could
                                 exercise slightly better enforcement.


30
     The OIG assumes that Postal Inspection Service management meant to state October 2005.



                                                        18
Postal Inspection Service                                                                               SA-AR-06-001
 Human Resources Service Center




 Evaluation of                    Management’s comments are partially responsive to our
 Management’s                     recommendations. We recognize in the report that HRSC
 Comments                         management annually requests the required LEAP forms from
                                  field personnel. However, based on our analysis 48 percent
                                  of the LEAP forms reviewed had discrepancies, of which
                                  37 percent related to LEAP certifications received after the
                                  required first 15 calendar days of the fiscal year. Thus, to
                                  ensure the appropriate forms are completed, signed, and
                                  certified timely to substantiate inspectors receiving availability
                                  pay, management should also modify its review process to
                                  conduct sufficient follow-up review of LEAP forms. We do not
                                  plan to pursue this recommendation through the formal audit
                                  resolution process.

 Vacancy Files                    HRSC personnel sufficiently managed vacancy
                                  announcements, but did not maintain the related vacancy
                                  files as required. Based on our review of 45 vacancy files
                                  related to vacancy announcements for FY 2004, we
                                  determined that HRSC personnel did not appropriately
                                  maintain 27 (60 percent) of the files. Specifically, four files
                                  were missing and 23 did not include pertinent documentation.

                                  Human Resources specialists create, maintain, and track
                                  Postal Inspection Service vacancy announcements in the
                                  Vacancy Announcement Program31 (VAP). Additionally, they
                                  create a vacancy file for each announcement. The files
                                  should contain specific documentation, such as (1) the
                                  vacancy announcement, (2) standard position description,
                                  (3) committee members’ name, position title, and grade,
                                  and (4) job applications. In addition, Human Resources staff
                                  should dispose of files 10 years after closing the
                                  announcement. 32

                                  However, we determined there were no established
                                  procedures to require Human Resources staff to review
                                  vacancy files periodically to ensure they were appropriately
                                  completed, updated, and disposed. Further, according to a
                                  management official, the Postal Inspection Service hired a
                                  significant number of employees in FY 2004, increasing the
                                  number of vacancy files. However, the HRSC did not have
                                  adequate staff to handle the files.

31
     VAP is a Web-based application used to create and advertise Postal Inspection Service vacancies.
32
     Postal Service Electronic Records and Information Management System, control number EB007.



                                                          19
Postal Inspection Service                                                         SA-AR-06-001
 Human Resources Service Center




                           HRSC management took initial steps to address the issues
                           with vacancy files. However, Postal Inspection Service
                           management should implement additional management
                           controls to improve the overall management of these files.
                           Improved controls will assist Postal Inspection Service
                           management with hiring and recruiting the most qualified
                           applicants and minimizing the risk of litigation regarding hiring
                           practices.

 Recommendation            We recommend the chief postal inspector:

                              5. Require Human Resources Service Center personnel
                                 to conduct periodic reviews of vacancy files to ensure
                                 the files are appropriately completed, updated, and
                                 disposed.

 Management’s              Management agreed with our recommendation, stating they
 Comments                  recognize that, based on the large number of vacancy-related
                           processing actions in fiscal year 2005, completion of reviews
                           on closed vacancy files were delayed due to the necessity to
                           re-prioritize and refocus tasks. Management further stated
                           that, prior to the issuance of the OIG report, they assigned
                           necessary personnel to review files and complete the requisite
                           follow-up.

 Evaluation of             Management’s comments and corrective actions are
 Management’s              responsive and satisfy the intent of our recommendation. We
 Comments                  agree and recognized in the report that management took
                           initial steps to address the issues identified with vacancy files.
                           Further, we commend management for implementing
                           additional controls to ensure periodic reviews of vacancy files.




                                              20
Postal Inspection Service                                                                               SA-AR-06-001
 Human Resources Service Center


                                                APPENDIX A

      BENCHMARKED RESULTS OF LAW ENFORCEMENT AGENCIES

                                                                   COMPLEMENT

                                  Drug Enforcement                                              Postal Inspection
        Description                Administration                   U.S. Marshals                   Service

Marshals/Postal Police                                 NA                              89                            798
Officers
Agents/Inspectors                                   5,031                           3,062                          1,809
Support Staff                                       5,240                           1,182                          94833
Human Resources Staff                                  78                             104                             24
Total Number of                                    10,349                           4,437                        3,57934
Employees Serviced
Human Resources                                   1 to 133                        1 to 43                       1 to 149
Staff Ratio

                               Attract and retain a            Recruit, train, and           Provide superior human
                               diverse and highly              maintain the highest          resources support
                               skilled workforce by            quality workforce             through timely hiring,
                               providing exceptional           possible to carry out the     reassignment, and
         MISSION
                               customer service in an          mission, functions, and       retirement actions. Also,
                               environment that fosters        business processes of         provide efficient counsel
                               personal and                    the U.S. Marshals.            on benefits and
                               professional growth.                                          compensation activities.

                               Oversee recruitment,            Oversee hiring, staffing,     Provide guidance on
                               hiring, staffing, and           and training; provide         benefits, personnel
                               classifications; provide        guidance on benefits          actions, discipline, safety
                               guidance on benefits,           and labor relations;          and injury
                               employee relations,             administer promotional        compensation, and the
                               health services,                pay, performance              Postal Inspection
       ROLES AND
                               occupational health and         management, and               Service’s health
     RESPONSIBILITIES
                               safety, and discipline          Alternative Dispute           examination program;
                               programs; process               Resolution programs;          and process new hires,
                               personnel and payroll           process personnel and         retirements,
                               actions; and develop            payroll actions; and          reassignments, and
                               Human Resources                 distribute badges.            employee actions.
                               policies.

                               Human Resources does            Human Resources does          The following Human
                               not have adequate               not have adequate             Resources services are
       AUTOMATED               automation technology.          automation technology.        automated and available
        SERVICES               However, job                    However, job                  through self–services:
                               applications and                applications are              employee awards,
                               performance ratings are         completed and                 employee ideals, Human

33
   This figure includes 391 positions that we could not determine the titles because they were not recorded in the
Postal Service’s Payroll System.
34
   Non-executives only.



                                                          21
Postal Inspection Service                                                                              SA-AR-06-001
 Human Resources Service Center


                                                                     COMPLEMENT

                                    Drug Enforcement                                              Postal Inspection
         Description                 Administration                  U.S. Marshals                    Service

                                 automated and                   processed online.            Resources policies and
                                 employees have Internet         (Note: They extensively      benefits, vacancies,
                                 access to workstations.         use Lotus Notes.)            Thrift Savings Plan,
                                 Human Resources is                                           Flexible Spending
                                 currently implementing                                       Account, Annual Leave
                                 an automated system                                          Exchange, allotments,
                                 called AVUE. (Note:                                          travel expenses,
                                 the official did not know                                    employee address
                                 the meaning of the                                           changes, and training
                                 acronym.)                                                    records.

                                 Human Resources                 Human Resources              HRCSs maintain all
                                 headquarters maintains          headquarters maintains       OPFs. Requesters can
                                 all OPFs. Requesters            all OPFs. Requesters         review OPFs in
                                 can review OPFs in              can review OPFs in           conjunction with an
                                 conjunction with a              conjunction with a           official or designated
                                 Human Resources                 Human Resources              custodian. Entire
         OFFICIAL                official at Human               official at Human            original OPFs are sent
        PERSONNEL                Resources headquarters          Resources headquarters       out for review.
         FOLDERS                 or receive copies.              or receive copies.
                                 Original OPFs are not           Original OPFs are not
                                 sent out for review.            sent out for review.
                                                                 Legal personnel are
                                                                 permitted to
                                                                 independently review
                                                                 original OPFs.

                                 Human Resources                 Human Resources              HRSC staff manually
                                 specialists input the           specialists input the        compute grade, step,
                                 grade and step into an          grade and step into an       and salary, including
                                 automated system at the         automated system at the      LEAP and locality pay.
                                 National Finance                National Finance
         SALARY
                                 Service Center.35 The           Service Center. The
       ADJUSTMENTS
                                 system assigns the              system assigns the
                                 appropriate salary              appropriate salary
                                 including, LEAP, and            including, LEAP, and
                                 locality pay.                   locality pay.




35
     The National Finance Service Center is one of four executive branch federal payroll providers.



                                                            22
Postal Inspection Service                                                        SA-AR-06-001
 Human Resources Service Center


     APPENDIX B. STATISTICAL SAMPLING METHODOLOGY

Purpose of the Sampling

The overall objective of this audit was to determine whether the Human
Resources Service Center (HRSC) effectively and efficiently supported the
mission of the Postal Inspection Service. Specifically, we determined whether
controls were adequate to prevent inappropriate payment of salaries and prevent
wrongful disclosure of records, and whether Law Enforcement Availability Pay
(LEAP) was properly certified and tracked.

In support of the objectives, the audit team used the simple random sampling
without replacement method on data sets, which include salaries for inspectors
and forensic personnel from fiscal years (FYs) 1999 through 2005, Official
Personnel Folders (OPFs) for active non-executive Postal Inspection Service
employees, and required LEAP certifications for inspectors for FYs 2003 through
2005. The sample design allows statistical projections for (1) the total number
and value of salary adjustment errors; (2) the total possible errors that occurred
in managing OPFs; and (3) the total number of LEAP certifications that were
either not required, missing, incorrectly completed versus the initial certification,
or signed after the required first 15 calendar days of the fiscal year.

Definition of the Audit Universe

The audit universe consisted of five data files maintained by HRSC staff.
Specifically, the audit universe included (1) salaries for 1,890 inspectors or
forensic personnel, on-board for at least 1 year, as of pay period 20, FY 2004;
(2) OPFs for 3,779 active Postal Inspection Service employees as of pay
period 20, FY 2004; and (3) required LEAP certifications for FYs 2003 through
2005 for 1,942 non-executive postal inspectors, on-board as of pay period 20,
FY 2004.

Sample Design and Modifications

We based the sample size on simple random sampling without replacement to
test either compliance on various controls of the audit subject or variable sample
on salaries. The estimated sample size for a population of 1,890 inspectors or
forensic personnel salaries is around 400 for a sufficiently projectable sample.
However, due to limited resources, the audit team sub-sampled only 100 cases
for inspectors or forensic personnel salaries.

We expected a low occurrence error rate of compliance test on various controls,
so we calculated the sample size on a one-side confidence interval, and we
assumed a desired risk of over-reliance of 5 percent. This corresponds to the
Government Accountability Office (GAO) recommendation to use a 95 percent

                                         23
Postal Inspection Service                                                    SA-AR-06-001
 Human Resources Service Center


“confidence level” for compliance testing. Using a 5 percent allowable upper
error limit (tolerable error) for precision, also as recommended in the GAO
Financial Audit Manual for compliance testing, we determined a sample size of
59 based on the binomial distribution methodology. Applying the finite population
correction, we calculated a sample size of 59 for selection of OPFs, and 58 for
selection of LEAP certifications for FYs 2003 through 2005.

All selections for inclusion in the sample were made using the “randbetween”
function in Excel to assign random numbers to the items on the universe listing.




                                        24
Postal Inspection Service                                                                           SA-AR-06-001
 Human Resources Service Center


             APPENDIX C. COST-AVOIDANCE METHODOLOGY

Objective

To project the Postal Service’s potential cost avoidance if the Postal Inspection
Service’s Human Resources Service Center (HRSC) is closed and services are
integrated into the Postal Service’s Human Resources Shared Service Center
(SSC).

Scope

The universe includes 16 active HRSC positions as of October 28, 2005 (pay
period 22, FY 2006).

Methodology

We used a discounted cash flow analysis based on Postal Service’s guidelines to
project potential cost avoidance.36 We performed our analysis over 10 years,
beginning with FY 2006. The Net Present Value of projected future cash flows
represents the value of the cost avoidance.

Assumptions

Postal Inspection Service employees displaced by closing the HRSC will assume
EAS vacant positions within the Postal Service, which would have otherwise
been filled with external personnel.

All transactional personnel-related work performed at the Postal Inspection
Service’s HRSC will be incorporated into the Postal Service’s SSC without any
additional personnel costs.

All costs for supplies and services associated with the operation of the Postal
Inspection Service’s HRSC will continue at the Postal Service’s SSC.

Cash Flow Items

Personnel cost savings associated with each EAS position eliminated, which is
based on total salaries and benefits.

Lease savings on the Postal Inspection Service’s HRSC building, which will be
renewed in FY 2006 if the HRSC does not close.



36
     November 2005 letter regarding DAR Factors/Cost of Borrowing/New Facility Start-Up Costs Update.

                                                     25
Postal Inspection Service                                                     SA-AR-06-001
 Human Resources Service Center


Escalation

Personnel costs are escalated at 2.8 percent per year, which is the Postal
Service’s published workhour rate.

Lease costs are escalated at 1.9 percent per year, which is the Postal Service’s
escalation factor for all other costs.

Discount Rate

The Postal Service’s published Cost of Borrowing of 5.25 percent (effective
November 7, 2005).




                                        26
Postal Inspection Service                  SA-AR-06-001
 Human Resources Service Center


       APPENDIX D. MANAGEMENT’S COMMENTS




                                  27
Postal Inspection Service              SA-AR-06-001
 Human Resources Service Center




                                  28
Postal Inspection Service              SA-AR-06-001
 Human Resources Service Center




                                  29
Postal Inspection Service              SA-AR-06-001
 Human Resources Service Center




                                  30
